<html>
<title> - IMMIGRATION ENFORCEMENT RESOURCES AUTHORIZED IN THE INTELLIGENCE REFORM AND TERRORISM PREVENTION ACT OF 2004</title>
<body><pre>[House Hearing, 109 Congress]
[From the U.S. Government Printing Office]



IMMIGRATION ENFORCEMENT RESOURCES AUTHORIZED IN THE INTELLIGENCE REFORM 
                  AND TERRORISM PREVENTION ACT OF 2004

=======================================================================

                                HEARING

                               BEFORE THE

                      SUBCOMMITTEE ON IMMIGRATION,
                      BORDER SECURITY, AND CLAIMS

                                 OF THE

                       COMMITTEE ON THE JUDICIARY
                        HOUSE OF REPRESENTATIVES

                       ONE HUNDRED NINTH CONGRESS

                             FIRST SESSION

                               __________

                             MARCH 3, 2005

                               __________

                            Serial No. 109-4

                               __________

         Printed for the use of the Committee on the Judiciary


    Available via the World Wide Web: http://www.house.gov/judiciary


                                 ______

                    U.S. GOVERNMENT PRINTING OFFICE
99-582                      WASHINGTON : 2005
_____________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512�091800  
Fax: (202) 512�092250 Mail: Stop SSOP, Washington, DC 20402�090001

                       COMMITTEE ON THE JUDICIARY

            F. JAMES SENSENBRENNER, Jr., Wisconsin, Chairman
HENRY J. HYDE, Illinois              JOHN CONYERS, Jr., Michigan
HOWARD COBLE, North Carolina         HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   RICK BOUCHER, Virginia
ELTON GALLEGLY, California           JERROLD NADLER, New York
BOB GOODLATTE, Virginia              ROBERT C. SCOTT, Virginia
STEVE CHABOT, Ohio                   MELVIN L. WATT, North Carolina
DANIEL E. LUNGREN, California        ZOE LOFGREN, California
WILLIAM L. JENKINS, Tennessee        SHEILA JACKSON LEE, Texas
CHRIS CANNON, Utah                   MAXINE WATERS, California
SPENCER BACHUS, Alabama              MARTIN T. MEEHAN, Massachusetts
BOB INGLIS, South Carolina           WILLIAM D. DELAHUNT, Massachusetts
JOHN N. HOSTETTLER, Indiana          ROBERT WEXLER, Florida
MARK GREEN, Wisconsin                ANTHONY D. WEINER, New York
RIC KELLER, Florida                  ADAM B. SCHIFF, California
DARRELL ISSA, California             LINDA T. SANCHEZ, California
JEFF FLAKE, Arizona                  ADAM SMITH, Washington
MIKE PENCE, Indiana                  CHRIS VAN HOLLEN, Maryland
J. RANDY FORBES, Virginia
STEVE KING, Iowa
TOM FEENEY, Florida
TRENT FRANKS, Arizona
LOUIE GOHMERT, Texas

             Philip G. Kiko, Chief of Staff-General Counsel
               Perry H. Apelbaum, Minority Chief Counsel
                                 ------                                

        Subcommittee on Immigration, Border Security, and Claims

                 JOHN N. HOSTETTLER, Indiana, Chairman

STEVE KING, Iowa                     SHEILA JACKSON LEE, Texas
LOUIE GOHMERT, Texas                 HOWARD L. BERMAN, California
LAMAR SMITH, Texas                   ZOE LOFGREN, California
ELTON GALLEGLY, California           LINDA T. SANCHEZ, California
BOB GOODLATTE, Virginia              JERROLD NADLER, New York
DANIEL E. LUNGREN, California        MAXINE WATERS, California
JEFF FLAKE, Arizona
BOB INGLIS, South Carolina
DARRELL ISSA, California

                     George Fishman, Chief Counsel

                          Art Arthur, Counsel

                 Luke Bellocchi, Full Committee Counsel

                  Cindy Blackston, Professional Staff

                   Nolan Rappaport, Minority Counsel


                            C O N T E N T S

                              ----------                              

                             MARCH 3, 2005

                           OPENING STATEMENT

                                                                   Page
The Honorable John N. Hostettler, a Representative in Congress 
  from the State of Indiana, and Chairman, Subcommittee on 
  Immigration, Border Security, and Claims.......................     1
The Honorable Sheila Jackson Lee, a Representative in Congress 
  from the State of Texas, and Ranking Member, Subcommittee on 
  Immigration, Border Security, and Claims.......................     2

                               WITNESSES

The Honorable. Solomon P. Ortiz, a Representative in Congress 
  from the State of Texas
  Oral Testimony.................................................     6
  Prepared Statement.............................................     9
Mr. Peter Gadiel, 9/11 Families for a Secure America
  Oral Testimony.................................................    11
  Prepared Statement.............................................    13
Mr. T.J. Bonner, National President, National Border Patrol 
  Council
  Oral Testimony.................................................    14
  Prepared Statement.............................................    17
Mr. Robert Eggle, father of Kris Eggle, slain National Park 
  Service Ranger
  Oral Testimony.................................................    23
  Prepared Statement.............................................    25

                                APPENDIX
               Material Submitted for the Hearing Record

Prepared Statement of the Honorable Sheila Jackson Lee, a 
  Representative in Congress from the State of Texas.............    37
Prepared Statement of the Honorable Zoe Lofgren, a Representative 
  in Congress from the State of California.......................    38
Prepared Statement of the Honorable Steve King, a Representative 
  in Congress from the State of Iowa.............................    38
Prepared Statement of the Honorable Linda T. Sanchez a 
  Representative in Congress from the State of California........    39
News Articles Compiled by Congressman Solomon P. Ortiz submitted 
  by Representative Sheila Jackson Lee...........................    40
News Articles submitted by Mr. Robert Eggle......................    92

 
IMMIGRATION ENFORCEMENT RESOURCES AUTHORIZED IN THE INTELLIGENCE REFORM 
                  AND TERRORISM PREVENTION ACT OF 2004

                              ----------                              


                        THURSDAY, MARCH 3, 2005

                  House of Representatives,
                       Subcommittee on Immigration,
                       Border Security, and Claims,
                                Committee on the Judiciary,
                                                    Washington, DC.
    The Subcommittee met, pursuant to notice, at 11:37 a.m., in 
Room 2141, Rayburn House Office Building, Hon. John N. 
Hostettler (Chair of the Subcommittee) presiding.
    Mr. Hostettler. The Subcommittee will come to order.
    At the end of last year, Congress passed the Intelligence 
Reform and Terrorism Prevention Act of 2004 based on some of 
the recommendations of the National Commission on Terrorist 
Attacks on the United States, known as the 9/11 Commission, 
which studied the nation's security lapses leading to the 
tragic terrorist attacks of September, 2001. Congress cannot 
simply pass that legislation and think we have done our job. 9/
11 is a tragedy of the scale that we must never forget. 
Preventing it from happening again demands our eternal 
vigilance.
    While many members of the House of Representatives believe 
that the act omitted key recommendations of the 9/11 
Commission, there was overwhelming bipartisan support for the 
act's recognition that the men and women of the Department of 
Homeland Security need greatly expanded resources if they are 
to successfully enforce the immigration laws of this nation and 
protect the American people.
    Today and over the next several weeks, our Subcommittee 
will examine the provisions of the act designed to do just 
this. In our hearing today, the Subcommittee will examine the 
act's call for doubling the Border Patrol over 5 years. Next 
Thursday, the Subcommittee will examine the resources needed to 
ensure interior immigration enforcement. Finally, on March 16, 
the Subcommittee will hear from Assistant Secretaries Robert 
Bonner and Michael Garcia of the Department of Homeland 
Security regarding the Administration's proposed 2006 budget 
for these processes.
    Although my home State of Indiana does not have Border 
Patrol agents stationed in it, the people of Indiana are 
grateful to those dedicated Border Patrol agents who are 
stationed at the nation's borders protecting all Americans from 
those who would enter the country surreptitiously and do us 
harm. As the 9/11 Commission found, ``It is elemental to border 
security to know who is coming into the country. . . . We must 
. . . be able to monitor and respond to entrances between our 
ports of entry. . . . The challenge for national security in an 
age of terrorism is to prevent the . . . people who may pose 
overwhelming risks from entering . . . the U.S. undetected.''
    But Admiral James Loy, Deputy Secretary of Homeland 
Security, testified just last month that, ``Entrenched human 
smuggling networks . . . in areas beyond our borders can be 
exploited by terrorist organizations. Recent information . . . 
strongly suggests that al-Qaeda has considered using the 
Southwest border to infiltrate the United States. Several al-
Qaeda leaders believe operatives can pay their way into the 
country through Mexico and also believe illegal entry is more 
advantageous than legal entry for operational security reasons. 
. . . [Also] the long United States-Canada border, often rugged 
and remote, includes a variety of terrain and waterways, some 
suitable for illicit border crossings.''
    Vice Admiral Lowell Jacoby, Director of the Defense 
Intelligence Agency, reminded us that it is, ``al-Qaeda's 
stated intention to conduct an attack exceeding the destruction 
of 9/11.''
    This testimony indicates the unwavering will of terrorists 
to exploit any weaknesses in our border security. However, the 
heavy burden of policing the nation's borders against 
terrorists is not all that is resting on the shoulders of the 
Border Patrol. The war on terrorism should not cause us to give 
pause in the war on drugs or the constant need to reaffirm our 
nation's sovereignty and territorial integrity. The Border 
Patrol remains our first line of defense against the entry into 
the country of terrorists, drug smugglers, gangs, criminal 
aliens, and others who seek to break our laws.
    I was very glad to hear the President say in his State of 
the Union Address this year that he supports an, ``immigration 
policy that . . . tells us who is entering and leaving our 
country, and that closes the border to drug dealers and 
terrorists.'' I was, therefore, deeply disappointed that his 
budget for 2006 calls for an increase in Border Patrol agents 
of barely 10 percent of that called for by the Intelligence 
Reform and Terrorism Prevention Act.
    The Intelligence Reform and Terrorism Prevention Act called 
for a 2,000-agent increase in Border Patrol strength for 2006. 
The witnesses at today's hearing will examine the need for this 
increase from each of their unique perspectives.
    At this time, the chair recognizes the Ranking Member from 
Texas, Ms. Jackson Lee, for an opening statement.
    Ms. Jackson Lee. Thank you very much, Mr. Chairman. Let me 
also ask your indulgence. We are in two hearings at this time 
and I wanted to make sure that I gave a great deal of my 
attention to this very important issue.
    Let me weome the witnesses and thank you so very much for 
your presence here today.
    Mr. Chairman, I am going to make a statement that I have 
made through the years of my participation in this 
Subcommittee, but more importantly, since 9/11. I think it is 
particularly important today because I believe out of this 
hearing there will be a great deal of commonality and unity on 
the crisis that we face and the opportunity that we have if we 
act now and the opportunity that we will miss if we do not act.
    First of all, I think it is important to note that 
immigration does not equate to terrorism, and I say it again. 
Immigration does not equate to terrorism. I hope in the future 
weeks and months to come we'll find common ground to address 
the concerns of Lou Dobbs, to address the concerns of hard-
working tax-paying immigrants who are undocumented in this 
country, to respond to the concern where Americans have felt 
that the question of a driver's license really cures terrorism, 
and it does not. I hope we will work together on that, Mr. 
Chairman, and find our way to the Arizona border, the 
California border, the Mexico and Texas border, and really work 
on these issues.
    But today, I think we have a more serious question and that 
question is glaring and I believe that we are moved to act, if 
not today, as soon as possible. Listen to these headlines. 
``Texas Tops Nation in Illegal Migrant No-Shows. About 40 
Percent Don't Go to Court Hearings. U.S. Figure is 23 
Percent.'' Again, about 40 percent of the individuals with 
court hearings do not show up, and the phrase for those mostly 
are what we call OTM, Other-Than-Mexican individuals or 
citizens, and that means that they get paperwork, but yet they 
do not show up. ``Snipers Target Border Agents,'' law 
enforcement officers who are working every day to secure our 
borders.
    I hope today that we understand that in addition to this 
issue of Border Patrol agents, securing the border requires a 
lot more--monitoring, collaboration, but certainly it requires 
a kind of increased professionalism, increased compensation, 
and increased numbers.
    Headlines, ``Bush Plan for Border Criticized in Congress,'' 
not because we don't want to work with the President, but 
because we realize that the disclosure that al-Qaeda operatives 
may try to sneak into the United States through Mexico is 
intensifying demands that we have the amount of numbers of 
Border Patrol agents.
    News headline that is recently published, ``Outgoing 
Homeland Security Official Cautions Against Citizen Border 
Patrol Agents,'' a problem that we're facing in our States 
because people are frustrated. We need trained, professional 
Border Patrol agents.
    Secretary, Deputy Secretary of Homeland Security, Mr. 
Chairman, first, the threat is unclear but enduring. The 
condition is not expected to change. We continue to note 
attempted entry into the U.S. by aliens who, according to 
intelligence, pose a threat. This is the testimony of Admiral 
James Loy. It is real. It is serious.
    The headlines speak to this continuously and there is 
headline after headline after headline that border control 
requires increased funding. ``Al Qaeda Threat Demands Border 
Funding,'' and that is an article recently published in Human 
Events. I can go on and on about the articles to be able to 
craft the problem.
    But what I would suggest as we look and listen in this 
hearing is that we listen with an ear of solution. The Bureau 
of Customs and Border Protection is responsible for overall 
border enforcement. Within the Bureau, a distinction is made 
between border enforcement at and between points of entry.
    This hearing is about funding for additional Border Patrol 
agents for the division within the Bureau that is responsible 
for border enforcement between points of entry the United 
States Border Patrol. The primary mission of the U.S. Border 
Patrol is to detect and prevent the entry of terrorists, 
weapons of mass destruction, unauthorized aliens into the 
country, and to interdict drug smugglers and other criminals 
between official points of entry.
    The U.S. Border Patrols 8,000 miles of international 
borders with Mexico and Canada and the coastal waters around 
Florida and Puerto Rico. It is a daunting task. The Northern 
border with Canada touches 12 States and is more than 4,000 
miles long. It has vast mountain ranges, such as the Rockies, 
the Great Lakes, and many different river systems, and in the 
winter, heavy snow and bitter cold temperatures. Reminded of 
the turn of the century, this last century, when the forces 
were able to thwart, along with local officials, the potential 
of a tragic terrorist incident that would have occurred at LAX, 
the Los Angeles airport. We know how important it is to secure 
both the Northern and Southern borders.
    The U.S. Border Patrol also utilizes advanced technology to 
augment its agents' ability to patrol the borders. These 
technologies include light towers, mobile night vision scopes, 
remote video surveillance systems, directional listening 
devices, unmanned aerial vehicles, and database systems. These 
so-called force multipliers allow the U.S. Border Patrol to 
deploy sometimes fewer agents while still maintaining its 
ability to detect and counter intrusions.
    The Intelligence Reform Act contains a provision requiring 
the USBP to add 2,000 agents to its workforce each year for FY 
2006 to 2010. Mr. Chairman, we have been talking about adding 
Border Patrol agents, I think, now for 6 years and we have not 
reached the goals that we need to reach. Notwithstanding that 
provision, the Administration's budget of FY 2006 only requests 
funding for 210 additional agent positions. We must amend that 
budget provision. We must add new numbers. We must ensure the 
professional development, and we must ensure the compensation.
    At the hearing today, we will hear testimony on the need 
for additional agents authorized by the National Intelligence 
Reform Act. Might I say to those who have not yet been to the 
borders, dealing with the Southern border, California, Texas, 
and Arizona, you need simply go and see the closeness of the 
United States to our neighbor to the South, the easiness for 
individuals who intend to do harm to cross the border.
    As I indicated, immigration does not equate to terrorism. 
Migration does not equate to terrorism. But lack of 
dutifulness, inattentive to a secure border to avoid those who 
intend to do us harm from meeting their court date, from being 
detained, is a crisis in and of itself.
    Mr. Chairman, as you well know, I was able to include 
portions of the CASE Act in the intelligence bill, the bill 
that I offered last session that provided extra measures of 
punishment for those who would smuggle individuals into this 
country. Yet we have not completely answered that question and 
I believe there are other aspects of the CASE Act that we 
should include--outreach programs, the educational programs 
that would avoid the tragedy of human trafficking.
    At the same time, I think we should take our instruction 
from the intelligence bill that was passed along with 
provisions from the Commercial Alien Smuggling Elimination Act 
of 2005. We need to act now. The 2,000 needed Border Patrol 
agents would be able to ensure or provide additional safety for 
the American people.
    I think it is important and imperative, Mr. Chairman, that 
this hearing be the underpinnings for answering the concerns of 
all of these articles, article after article after article 
after article, that speaks to the question that we are not safe 
at our borders and we are not giving our Border Patrol agents 
sufficient staff to do so.
    I thank the Chairman very much for this time.
    Mr. Hostettler. I thank the gentlelady for her opening 
statement.
    Without objection, all opening statements will be made a 
part of the record.
    At this time, I will introduce our witnesses today. We are 
fortunate that testifying today will be Mr. Peter Gadiel, 
Director of the 9/11 Families for a Secure America. Peter and 
his wife, Jan, of Kent, Connecticut, lost their son, James, at 
age 23 in the World Trade Center on September 11, 2001. Mr. 
Gadiel has worked tirelessly since that day to see that no 
other American families ever again have to experience the 
nightmare suffered by he and his wife.
    Also testifying will be Mr. T.J. Bonner, head of the 
National Border Patrol Council, which represents thousands of 
Border Patrol agents. Mr. Bonner, a Border Patrol agent himself 
for many years, is in a unique position to tell us about the 
morale of Border Patrol agents, the difficult job those agents 
must perform every day, the dangers they face as they pursue 
smugglers with human and drug cargo, and their need for 
additional help to control our borders.
    Likewise, former Army Airborne Ranger and wounded Vietnam 
Veteran Robert Eggle will be testifying. Bonnie and Bob Eggle's 
son, Kris, lost his life in the line of duty along the border 
at Organ Pipe Cactus National Monument on August 9, 2002. From 
Cadillac, Michigan, Kris became an Eagle Scout, a National 
Honor Society student, and graduated from Cadillac High School 
as valedictorian in 1991. After graduation with honors from the 
University of Michigan, he took a job with the National Park 
Service. Kris was fatally shot while pursuing a drug cartel hit 
squad who escaped across the United States border after a spate 
of killings in Mexico. Kris was 28 years old.
    Mr. Gadiel and Mr. Eggle, let me express the deepest 
sympathy to you from every member of this Subcommittee. As the 
father of two sons and two daughters, words cannot express my 
sadness for your loss. It is your courage and the courage of 
your family, demonstrated by your willingness to appear before 
the Subcommittee today, that gives us all the vision that out 
of great despair can come great hope. Likewise, it is my desire 
that your words do not fall on deaf ears but are the impetus 
for a renewed effort to give the men and women who valiantly 
defend our borders, and indeed our sovereignty, the aid they 
require to do their job.
    Another witness will be the honorable gentleman from Texas, 
Mr. Solomon Ortiz. Out of courtesy to a fellow Member of 
Congress, I will ask the Ranking Member's witness, Mr. Ortiz, 
to speak first today. Mr. Ortiz has represented Texans in 
Congress since 1982. Prior to that, he served as Nueces County 
Sheriff. His district abuts the Rio Grande River and the 
Mexican border. His constituents witness every day the problems 
stemming from the lack of secure borders. He is co-chair of the 
bipartisan House Border Caucus, which examines issues that 
affect the communities along the U.S. borders, particularly the 
U.S.-Mexico border.
    Will the witnesses please rise to take the oath.
    Do you solemnly swear that the testimony you are about to 
give before this Committee will be the truth, the whole truth, 
and nothing but the truth, so help you, God?
    Mr. Ortiz. I do.
    Mr. Gadiel. I do.
    Mr. Bonner. I do.
    Mr. Eggle. I do.
    Mr. Hostettler. Thank you. You may be seated.
    Ms. Jackson Lee. Mr. Chairman, would you yield for just a 
point of personal privilege for Mr. Ortiz, Congressman Ortiz?
    Mr. Hostettler. Yes, I yield to the Ranking Member.
    Ms. Jackson Lee. Let me just, point of personal privilege 
to indicate to my colleagues that Congressman Ortiz has been on 
this matter for an enormous amount of time and spent an 
enormous amount of time. This is a--I don't want to put words 
in his mouth, but a crisis in his area. He has been a leader on 
this issue and has taken any number of members to the border 
area to show first-hand what is happening, and I want to 
particularly weome him and thank him for his leadership and for 
bringing this to our attention.
    This is an important issue, and I thank you for indulging. 
I may have to go to the Floor, and I thank you again for 
indulging.
    Mr. Hostettler. Thank you, Ms. Jackson Lee.
    I would like the record to reflect that the witnesses 
responded in the affirmative to the oath.
    Mr. Ortiz, you are recognized for 5 minutes.

 TESTIMONY OF THE HONORABLE SOLOMON P. ORTIZ, A REPRESENTATIVE 
              IN CONGRESS FROM THE STATE OF TEXAS

    Mr. Ortiz. Thank you, Mr. Chairman. With your permission, 
my co-Chairman of the Border Caucus, Chairman Bonilla, couldn't 
be here because he has another meeting going on, but if I may, 
I would like to introduce one of the sheriffs, Sheriff D'Wayne 
Jernigan, who really understands the problem that Chairman 
Bonilla and myself and he is going through.
    But if I may, with your permission, I would like to show 
two videos that we have. With your permission, I would like to 
do that.
    Mr. Hostettler. Without objection. [Videotape shown.]
    Mr. Ortiz. I think this is another tape of a member of a 
very vicious gang who was also arrested. I think it is coming 
up. [Videotape shown.]
    Mr. Ortiz. Thank you, Mr. Chairman, for allowing us 
witnesses to appear before your Committee and for you and the 
Members of the Committee to have a little understanding and 
knowledge, and I know that you do because members of the 
minority and majority staff were there. They have seen the 
border problems, and I want to thank you for that, for them 
spending time at the border.
    You know, I am not an immigrant basher. My mother was an 
immigrant and I am part of a rich tradition of immigrants in 
the United States. Before coming to Congress, I was a sheriff 
in South Texas, which keeps me in close touch with the people 
who protect our safety and property along the Southern border.
    I want to address a growing dangerous national security 
problem originating on the Southern border with three major 
components: number one, the release of OTMs, which translates 
to Other-Than-Mexicans, by the United States Government. Border 
law enforcement officers routinely release illegal immigrants 
into the general population of the United States because they 
do not have sufficient funds and space to detain them at 
detention facilities.
    Captured OTMs are released on their own recognizance and 
are ordered to appear at a deportation hearing weeks after 
their release. The number of absconders, those who never appear 
for deportation, varies very widely, but just recently when I 
checked, they said it is around 90 percent of those released, a 
number now approaching within the last fiscal year and the 
beginning of this fiscal year 75,000 individuals.
    The growing number, number two, of Mara Salvatruchans 
continues to grow. Now, these are members of the gangs, the 
bloody, violent Central American gangs that are now a serious 
criminal element in major cities and in States around the 
country. Some of these gangs are entering the country as OTMs 
and gaining easy release.
    And number three, a recent warning to Americans by the 
United States Ambassador to Mexico illustrating the danger of 
narcotrafficking gangs along the United States border directed 
against Americans in the border area, including kidnapping of 
American citizens.
    The Southern border is literally under siege and there is a 
real possibility that terrorists, particularly al-Qaeda forces, 
could exploit this series of holes in our law enforcement 
system along the Southern border. There has been a 137 percent 
increase in OTMs in this present fiscal year, alone translating 
to roughly 19,000 in one Border Patrol sector, which is the 
McAllen Sector in the district that I represent. However, this 
problem is not just in South Texas. Boston, Massachusetts, area 
police have arrested a number of MS-13 gang members who are 
causing serious crime problems in the community, one of which 
was a reported OTM released by Border Patrol law enforcement.
    Central American law enforcement and news reports note, and 
I have talked to some of them, that al-Qaeda is trying to get 
the ruthless M5-13 gangs to move high-value al-Qaeda agents or 
operators across the border for large sums of money, totaling 
up to $250,000 or more. Admiral Loy at DHS recently noted in 
testimony before the Intelligence Committee that al-Qaeda is 
attempting to exploit the Southern border to enter the United 
States.
    The intelligence reform bill passed by Congress and signed 
by the President mandated 10,000 Border Patrol agents over 10 
years, or 2,000 Border Patrol agents annually for the next 5 
years. The budget received by Congress in early February only 
funded 210 Border Patrol agents. The Border Patrol will lose 
more than 210 agents due to attrition. And just this week, 24 
more Border Patrol agents were mobilized with the National 
Guard to go and serve in Iraq.
    Intelligence reform mandated an increase of 8,000 beds in 
detention facilities annually for the next 5 years, still not 
nearly enough to hold all those coming into the United States. 
Yet our budget proposal provides for only 1,900 new detention 
spaces, over 6,000 beds short of the Congressional mandate 
passed in December of last year.
    This is a clear and present danger inside the United States 
and the number of released immigrants not returning for 
deportation grows by hundreds each week. This willfully ignores 
a complex problem undermining our national objective, to take 
the war to the enemy so we do not have to fight the war on 
terror inside our country. Yet, we could very well be letting 
people come into our backyard.
    Not only do we not know who we are releasing, we don't know 
where they are going. The entire system depends upon the 
information given to us or to the Border Patrol by the 
immigrants. Without any sort of identification, agents simply 
have to trust that they are getting accurate information.
    Local rangers in South Texas have found clothing that is 
native to the Middle East. They have found currency, Middle 
Eastern currency, of countries of special interest, and those 
OTMs are being released.
    The more OTMs we release, the more we encourage their 
crossing in the first place, and this is not the first 
experience we have had. About 15 years ago, I had 57,000 
immigrants in my district, and this was when Attorney General 
Meese, when the Contra War was going on, when he said, if you 
fear for your life, all you have to do is ask for political 
asylum. I had 57,000 people in my district.
    My friends, until we have the resources we need, the Border 
Patrol agents, the detention facilities, and the appropriate 
technology to screen those immigrants, they are going to 
continue to enter this country. And until we send that signal 
that if you come, you are going to be apprehended, you are 
going to be detained, and you are going to go through the 
normal process and be deported, if we don't do that--in fact, I 
just got an e-mail, three Palestinians were coming across. They 
arrested one and they are still looking for two others.
    My friends, these are things that are happening on a daily 
basis, and I don't want to consume too much time because I know 
that we have other witnesses. We are desperate for help.
    You might ask about the morale. The morale of our Border 
Patrol is low. They are confused. They ask, what is our 
mission? Some of them feel like they are taxicab drivers, Wal-
Mart greeters. Those coming across, what they do is just turn 
themselves in to the Border Patrol and they ask, where are my 
walking papers? It wouldn't be so bad if we knew who they are 
or where they are coming from.
    These are their walking papers, my friends. You don't see a 
picture. You don't see an address. You don't see fingerprints. 
And many times, an individual comes with a walking paper and 
then they find that the individual has identification with 
another name. He is rearrested. The old paper is thrown away 
and he is given a new one with a new name. This is what's 
happening at our border.
    This is very, very serious. I could go on and on, but I 
will allow later on for some questions and thank you for your 
indulgence. Thank you so much.
    Mr. Hostettler. Thank you, Mr. Ortiz.
    [The prepared statement of Mr. Ortiz follows:]
Prepared Statement of the Honorable Solomon P. Ortiz, a Representative 
                  in Congress from the State of Texas
    Chairman Hostettler, Ranking Member Jackson Lee, and Members of the 
Committee.
    Thank you for your timely hearing about dangers in U.S. border 
security.
    Before I begin, let me state that I am not an immigrant-basher. My 
mother was an immigrant and I am part of a rich tradition of immigrants 
in the U.S.
    Before coming to Congress, I was a sheriff in South Texas, which 
keeps me in close touch with the people who protect our safety and 
property along the southern border.
    I want to address a growing, dangerous national security problem 
originating on the southern border with 3 major components:

        1.  The release of OTMs (other than Mexicans) by the U.S. 
        government. Border law enforcement officers routinely release 
        illegal immigrants into the general population of the U.S. 
        because they do not have sufficient funds and space to detain 
        them at detention facilities. Captured OTMs are released on 
        their own recognizance and are ordered to appear at a 
        deportation hearing weeks after their release. The number of 
        ``absconders''--those who never appear for deportation--varies 
        widely, but is said to be 90% of those released, a number now 
        approaching 75,000.

        2.  The growing number of Mara Salvatrucha (MS 13) gangs, the 
        bloody, violent Central American gangs that are now a serious 
        criminal element in major cities and in states around the 
        country. These gangs are entering the country as OTMs, and 
        gaining easy release.

        3.  A recent warning to Americans by the U.S. Ambassador to 
        Mexico illustrating the danger of narcotrafficking gangs along 
        the U.S. border directed against Americans in the border area, 
        including kidnapping of American citizens.

    The Southern Border is literally under siege, and there is a real 
possibility that terrorists--particularly al Qaida forces--could 
exploit this series of holes in our law enforcement system along the 
southern border.
    There has been a 137% increase in OTMs in this fiscal year alone--
translating to roughly 6,000 OTMs. Of those, 40% pass through the 
McAllen Sector alone in south Texas.
    However, this problem is not just in South Texas. Boston-area 
police have arrested a number of MS 13 gang members who are tearing 
through their community, one of which was reported to be an OTM, 
released by border law enforcement.
    Central American law enforcement and news reports note that al 
Qaida is trying to get the ruthless MS 13 gangs to move high value al 
Qaida operatives across the border for a large sum of money, we've 
heard about $250,000.
    Admiral James Loy from the Department of Homeland Security recently 
noted in testimony before the Intelligence Committee that there is 
reason to believe al Qaida is attempting to exploit the southern border 
to enter the U.S.
    This is what we know.
    The Intelligence Reform bill passed by Congress, and signed by the 
President, mandated 10,000 Border Patrol agents over 10 years, 2,000 
annually. The budget received by Congress in early February only funded 
210 BP agents. The Border Patrol will lose more than 210 agents to 
attrition--the strength of the Border Patrol is dwindling. Just this 
week, 24 more Border Patrol agents were mobilized with the National 
Guard to the war in Iraq from the McAllen sector alone.
    Intelligence Reform mandated an increase of 8,000 beds in detention 
facilities annually for the next 5 years, still not nearly enough to 
hold all those coming in to the U.S. Yet, our budget proposal provides 
for only about 1,900 new detention space beds--over 6,000 beds short of 
the congressional mandate passed in December 2004.
    This is a clear and present danger inside the United States, and 
the number of released illegal immigrants not returning for deportation 
grows by the hundreds each week.
    This willfully ignores a complex problem undermining our national 
objective: to take the war to the enemy so we do not have to fight the 
war on terror inside our country, yet we could very well be letting 
people in our own backyard.
    Not only do we not know who we are releasing, we don't know where 
they are going. The entire system depends upon the information given to 
us by the immigrants. Without ID, agents simply have to trust they are 
getting accurate information.
    Local ranchers found clothing that is native to the Middle East and 
Sudanese money--countries of special interest--and those OTMs are being 
released. They are showing up in taxis at Border Patrol stations to get 
their walking papers.
    The more OTMs we release, the more we encourage their crossing in 
the first place. Until we have the resources we need--the border patrol 
agents, the detention facilities and the appropriate technology--to 
accurately screen these immigrants, they are going to continue to enter 
the country. We must send a clear signal that they will be apprehended 
and put through the legal process in order for these OTMs to stop 
infiltrating our borders.
    Our borders are crossed illegally in waves--the first wave of 10 or 
so are captured, processed and nearly always released, but while the 
agents are processing the first wave, the next several waves come in 
uncontested.
    Again, let's be clear--this is not anti-immigrant rhetoric.
    Most immigrants crossing our borders merely seek a better life. In 
FY03, 95% of illegal immigrants were Mexicans; the remaining 5% 
(49,545) were OTMs.
    Before 9/11, concerns about illegal immigrants focused entirely on 
the cost to local communities and the fear that Americans could lose 
jobs to immigrants willing to work cheaper. That is not the case today.
    Once again, the OTM issue is not just a concern for border 
communities, but more importantly for all of us. It is a dire matter of 
our national security in this dangerous new age.
    I am introducing a border security bill shortly that will address 
some of the issues we have discussed here today. I hope all of you will 
consider co-sponsoring it and I invite you to my district to see all 
this for yourselves.
    My recommendations--many of which are included in my bill--are on 
many levels:

        <bullet>  Providing more security clearances to agents so more 
        can access the database--presently only a few have the 
        abilities--or providing more training for our agents

        <bullet>  More piloted aircraft, fewer UAVs--those who utilize 
        it say our air ops is outdated

        <bullet>  In the McAllen sector, we need remote video cameras--
        they need cameras on both sides of the checkpoints

        <bullet>  More personnel to man the checkpoints and cameras

        <bullet>  More immigration judges

        <bullet>  Some type of roving collection facility to gather up 
        illegal immigrants to keep agents on their post

        <bullet>  Work with Mexico to prevent OTMs from crossing in the 
        first place

        <bullet>  Exchange criminal data with Central American 
        countries to know who's crossing the border

        <bullet>  Agencies need to talk to each other and stop denying 
        the magnitude of this problem.

    We can't just talk about it, or authorize it. We must fund every 
single penny of it now, in the supplemental coming before Congress in 
the next few weeks.
    I asked those who stand on our front lines what they would want to 
say to the U.S. Congress; here's what they said:

        --``Our borders are not secure.''

        --``What's our mission here? We're spinning our wheels.''

        --``The whole system is broken.''

        -- ``We're releasing OTMs without proper checks due to lack of 
        time and info.''

    I want to thank the Majority and the Minority members of the 
Subcommittee--and their staff--for their concern on this issue and for 
inviting me to testify.
    I wish to submit for the record a number of new stories about these 
things, and I am happy to answer any questions you may have.

    Mr. Hostettler. Mr. Gadiel, you are recognized.

 TESTIMONY OF PETER GADIEL, 9/11 FAMILIES FOR A SECURE AMERICA

    Mr. Gadiel. Speaking for many members, 9/11 family members, 
Mr. Chairman, Members of the Subcommittee, I am deeply 
appreciative of this opportunity to speak to you today to 
discuss the importance of fully funding the additional border 
security resources authorized by Congress last year in the 
Intelligence Reform Act.
    The act was signed into law by the President on December 
17, 2004, and was designed to respond to security weaknesses 
identified by the 9/11 Commission. The Congressional debate of 
the bill, as you know, was particularly contentious. Not once 
during that debate, however, did we hear any Member of Congress 
or the Administration question the need for 10,000 additional 
Border Patrol agents, 4,000 additional ICE agents, and 40,000 
additional detention beds.
    In a December 6 letter to the House-Senate conferees 
negotiating the bill, President Bush said, ``I also believe the 
conference took an important step in strengthening our 
immigration laws by, among other things, increasing the number 
of Border Patrol agents and detention beds.'' The need for 
these extra resources is obvious. As the 9/11 Commission's 
staff put it in the opening line of their monograph on 
``Terrorist Travel,''``Terrorists cannot plan and carry out 
attacks in the United States if they are unable to enter our 
country.''
    Like the other 9/11 families, I was appalled to read that 
the President's budget proposal included funding for only 210 
additional border agents, 143 ICE investigators, and 1,920 
additional detention beds. Every 9/11 family member I have ever 
spoken with over the past 3 years understands that their loved 
ones died because the Government failed to live up to its most 
basic obligation to its citizens, to protect us from foreign 
attack.
    We know there were intelligence failures leading up to 9/
11. We know that complacent Government officials simply refused 
to believe that something like 9/11 could happen here. And more 
than anything else, we know that the Government failed to 
maintain control of our borders leading up to 9/11.
    Those 19 mass murderers counted on lax scrutiny of their 
visa applications and overwhelmed inspectors at our ports of 
entry. Then once here, the terrorists counted on being able to 
hide in plain sight in an ocean of over ten million illegal 
aliens living in the United States. They benefitted from the 
fact that enforcement of immigration laws inside the United 
States is virtually nonexistent and Americans are so inured to 
this fact that no one, civilian or law officer, would notice 
them or interfere with them as they planned, rehearsed, 
financed, and then carried out their conspiracy over a period 
of almost 2 years.
    They were free to obtain U.S. identity documents, rent 
apartments, open bank accounts, sign up for flight lessons, and 
then board airplanes with the drivers' licenses so obligingly 
provided to them by Virginia, New Jersey, and Florida.
    This failure to enforce existing immigration laws both at 
our borders and within the United States, along with the 
plethora of incentives, benefits, and services we offer to 
illegal aliens, led directly to the 9/11 attacks and the death 
of my son and 3,000 others.
    We who lost so much on that day simply cannot understand 
why some in our Government are still questioning the need for 
adequate resources, especially manpower, to control who is 
permitted to enter our country. These Government officials tell 
us that truly securing our borders would endanger our freedom, 
as if having open borders where anyone, including terrorists, 
can freely enter our country somehow protects our freedom.
    They tell us that they can protect us from terrorism 
without disrupting illegal immigration, as if terrorists 
somehow look different and thus stand out. They tell us we must 
accept amnesty in order to bring illegal aliens out of the 
shadows and register them, as if we didn't know with certainty 
that terrorist sleepers will take advantage of this, just as 
Mahmud Abouhalima did in 1986, after which, possessing a nice 
new green card, he continued to obtain terrorist training so he 
could drive a vanload of explosives into the World Trade Center 
in 1993.
    Mr. Chairman, you mentioned before the testimony of Mr. Loy 
recently before the Select Committee on Intelligence. I won't 
repeat what he said, except to say that at the end, he said, 
``there is no conclusive evidence that indicates operatives 
have made successful penetrations via this method.''
    We have learned that in the weeks prior to 9/11, there were 
many indications that al-Qaeda was planning terrorist attacks 
using commercial jetliners. It appears that many in our 
Government failed to act because they lacked conclusive proof 
as to the time, date, or place. For the 9/11 families, our 
conclusive proof was watching, along with the rest of our 
country, as our loved ones suffered hideous and often prolonged 
agonies before their deaths.
    Shortly after the 9/11 attacks, President Bush stood on the 
ruins of the World Trade Center, the only tomb my son will ever 
know, and said, ``I hear you.'' I would sincerely like to 
believe that that's true, because time is not on our side and 
it is unlikely that we will have conclusive proof before the 
next attack, either. We can't afford to wait any longer before 
we take our borders seriously.
    Our organization, 9/11 Families for a Secure America, 
fought last year in support of H.R. 10, with its border and 
identity security provisions. We were met in the Senate with 
the usual protests by opponents of real reform--``Not this. Not 
now. Not here.'' As a result of that Senate opposition, most of 
the border and document security provisions we supported were 
stripped from the final bill, even though they were supported 
by the work of the 9/11 Commission. Thankfully, the bill did 
retain substantial increases in authorized Border Patrol 
agents, ICE agents, and detention beds. But now that it is time 
to fund these increases, we again hear, ``Not this. Not now. 
Not here.''
    To those who oppose the increases, we who lost loved ones 
on 9/11 ask this. If not now, when? If not this, what? And if 
not here on our borders, where? How much more conclusive proof 
will it take? Thank you.
    Mr. Hostettler. Thank you, Mr. Gadiel.
    [The prepared statement of Mr. Gadiel follows:]

                   Prepared Statement of Peter Gadiel

    Mr. Chairman and Members of the Subcommittee, thank you for the 
opportunity to appear before you to today to discuss the critical 
importance of fully funding the additional border security resources 
authorized by Congress last year in the Intelligence Reform and 
Terrorism Prevention Act
    This act, signed into law by the President on December 17, 2004, 
was designed to respond to security weaknesses identified by the 9/11 
Commission. The congressional debate of the bill, as you know, was 
particularly contentious. Not once during that debate, however, did I 
hear any Member of Congress or the Administration question the need for 
the 10,000 additional Border Patrol agents, 4,000 additional ICE 
investigators, and 40,000 additional detention beds. In a December 6 
letter to the House-Senate conferees negotiating the bill, President 
Bush said: ``I also believe the conference took an important step in 
strengthening our immigration laws by, among other items, increasing 
the number of border patrol agents and detention beds.'' The need for 
these extra resources is obvious. As the 9/11 Commission's staff put it 
in the opening line of their monograph on 9/11 and Terrorist Travel: 
``terrorists cannot plan and carry out attacks in the United States if 
they are unable to enter the country.''
    Like the other 9/11 families, I was shocked to read that the 
President's budget proposal included funding for only 210 additional 
Border Patrol agents, 143 additional ICE investigators, and 1,920 
additional detention beds. Every 9/11 family member I have spoken with 
over the past three years understands that their loved ones died 
because our government failed to live up to its most basic obligation 
to its citizens: to protect us from foreign attack.
    We know there were intelligence failures leading up to 9/11. We 
know that complacent government officials simply refused to believe 
that something like 9/11 could happen here. More than anything else, 
though, we know that our government failed to maintain control of our 
borders leading up to 9/11.
    Those 19 murderers counted on lax scrutiny of their visa 
applications and overwhelmed inspectors at our ports of entry. Once 
here, the terrorists counted on being able to hide in plain sight in 
the ocean of 10 million or more illegal aliens living in the United 
States.
    They benefited from the fact that enforcement of immigration laws 
inside the United States is virtually nonexistent and that Americans 
are so inured to this fact that no one--civilian or law officer--would 
notice them or interfere as they planned, rehearsed, financed, and then 
carried out their conspiracy to commit mass murder.
    They were free to obtain US identity documents, rent apartments and 
vehicles, open bank accounts, sign up for flight lessons, and then 
board airplanes with the drivers' licenses so obligingly issued to them 
in Virginia, Florida and New Jersey.
    This failure to enforce existing immigration laws both at our 
borders and within the United States, along with the plethora of 
incentives, benefits and services we offer to illegal aliens, led 
directly to the 9/11 attacks and the death of my son and three thousand 
other innocents.
    We, who lost so much on that day, simply cannot understand why some 
in our government are still questioning the need for adequate 
resources, especially manpower, to control who is permitted to enter 
our country. These government officials tell us that truly securing our 
borders would endanger our freedom, as if having open borders--where 
ANYONE, including terrorists, can freely enter our country--somehow 
protects our freedom. They tell us that they can protect us from 
terrorism without disrupting illegal immigration, as if terrorists will 
somehow look different and so stand out. They tell us that we must 
accept amnesty in order to bring illegal aliens out of the shadows and 
register them, as if we didn't know with certainty that terrorist 
``sleepers'' will take advantage, just as Mahmud Abouhalima did in 
1986, after which he used his new green card to obtain terrorist 
training so he could drive a vanload of explosives into the World Trade 
Center in 1993.
    At a hearing before the Senate Select Committee on Intelligence on 
February 16, Adm. James Loy, Deputy DHS Secretary, testified that:

        . . . entrenched human smuggling networks and corruption in 
        areas beyond our borders can be exploited by terrorist 
        organizations. Recent information . . . strongly suggests that 
        al-Qaida has considered using the Southwest Border to 
        infiltrate the United States. Several al-Qaida leaders believe 
        operatives can pay their way into the country through Mexico 
        and also believe illegal entry is more advantageous for 
        operational security reasons. However, there is no conclusive 
        evidence that indicates . . . operatives have made successful 
        penetrations . . . via this method.

    We have learned that in the weeks prior to 9/11 there were many 
indications that al-Qaida was planning terrorist attacks using 
commercial jetliners. It appears that many in our government failed to 
act because they lacked ``conclusive proof'' as to time, date, or 
place. For the 9/11 families, our ``conclusive proof'' was watching, 
along with the rest of the country, as our loved ones suffered hideous 
and often agonizing deaths.
    Shortly after the 9/11 attacks, President Bush stood on the ruins 
of the World Trade Center, the only tomb my son will ever know, and 
said: ``I hear you.'' I sincerely hope that's true, because time is not 
on our side and it is unlikely that we will have ``conclusive proof'' 
before the next attack either. We cannot afford to wait any longer 
before we take border security seriously.
    9/11 FSA fought last year in support of H.R. 10 with its border and 
identity security provisions. We were met in the Senate with the usual 
protests by opponents of real reform: ``Not this. Not now. Not here.'' 
As a result of Senate opposition, most of the border and document 
security provisions we supported were stripped from the final bill, 
even though they were supported by the 9/11 Commission's work. 
Thankfully, the final bill did retain substantial increases in 
authorized Border Patrol agents, ICE agents, and detention beds. But 
now that it is time to fund those increases we again hear: ``Not this. 
Not now. Not here.''
    To those who oppose the increases we ask: If not now, when? If not 
this, what? And if not here on our borders, where? How much more 
``conclusive proof'' will it take?

    Mr. Hostettler. Mr. Bonner.

 TESTIMONY OF T.J. BONNER, NATIONAL PRESIDENT, NATIONAL BORDER 
                         PATROL COUNCIL

    Mr. Bonner. Thank you, Mr. Chairman, and other Members of 
the Subcommittee. I have been a Border Patrol agent for the 
past 27 years and have proudly served my country in this 
occupation and have thousands of colleagues who are also proud 
to have served, and I have to tell you, looking at that video 
earlier makes me ashamed, not because we are letting the 
country down but because of what is happening and we are being 
forced to carry out policies that are not in the interest of 
our country.
    Since its founding in 1924, the United States Border Patrol 
has lost 96 agents in the line of duty. Hundreds of other law 
enforcement officers have also given their lives guarding our 
nation's borders. One of those, Kris Eggle, was assisting U.S. 
Border Patrol officers to chase down some drug smugglers and he 
was ambushed and murdered in Arizona back in 2002. I would hope 
that the lives of all of these courageous agents have not been 
given in vain, that there is a purpose for this, that Congress 
is truly interested in protecting our country against the 
threats of criminals, and in this day and age, especially 
terrorists.
    There should be no debate anymore about whether there is a 
link between border security and homeland security. There 
clearly is. The time for debating that should have passed long 
ago. We need to take measures to secure our borders, and one of 
the most important measures is to augment the personnel who are 
on our borders 24/7.
    It is very disappointing to me that the President in his 
budget request has only requested 5 percent of the promised 
resources. While he says that he is requesting 210 positions, 
if you read the budget justification documents, it is only 105 
full-time-equivalent positions. There are no part-time Border 
Patrol agents, which means that there are really only 105 
positions out of 2,000 that are being requested. This is 
shameful. We need a lot of help and we need a lot of help now.
    The people who oppose adding additional Border Patrol 
agents generally have two arguments, the first being that 
technology force multipliers will eliminate the need for more 
Border Patrol agents, and the second argument deals with the 
ability of the Border Patrol to add 2,000 people a year.
    Back in 1996, Congress called for a doubling of the Border 
Patrol's workforce at that time, hiring 1,000 agents a year. 
The naysayers said it couldn't be done. We did it. We can do it 
again, because the percentage of people that we would be adding 
this time would be actually even less than the percentage of 
people that we added before. A law enforcement agency can 
comfortably absorb 20 to 25 percent additional people per year. 
We need the additional resources. We beg you, as Members of 
Congress, to give us those additional resources.
    I would like to talk a little bit about the technology. 
Technology gives you a snapshot of what happens at the border. 
It is cost-efficient technology. Now, you can get the fancy 
stuff like the unmanned aerial vehicles and those can track 
people as they go north of the border, although they crash 100 
times more often than a piloted aircraft. And, in fact, during 
the pilot program last year in Arizona, to the tune of ten 
million taxpayer dollars, we were able to get three UAVs up in 
the air and we managed to crash three of them.
    This is not a cost-effective use of taxpayer dollars. We 
need more agents on the ground. We need more ground sensors. We 
need more cameras. And we need more pilots and helicopters. But 
high-tech devices such as UAVs are not the answer. UAVs are 
great for combat areas in military operations where your 
aircraft are being shot down. That is not happening on our 
Southern borders and technology does not catch a single 
violator. Technology cannot swoop down and arrest anyone. That 
has to be done by Border Patrol agents.
    We desperately need more Border Patrol agents in order to 
carry out our essential mission, which is stopping everyone 
from coming across the border, and we are not getting that 
done. Even though we apprehended 1.2 million violators last 
year alone, millions more got by us. Our agents estimate that 
for every person that we catch, two to three get by us. That is 
simply unacceptable, because even though the overwhelming 
majority of those people might be folks who are only looking to 
work in this country, there are sprinkled within that thousands 
of criminals, and yes, there are terrorists in that mix. We 
know that. Common sense tells us that terrorists want to come 
into the country.
    The easiest hole to exploit in our homeland security 
network at this point in time is the porosity of our Southwest 
border, and the Northern border is also very porous. We have at 
this time about 1,000 Border Patrol agents to patrol 4,000 
miles of border between the Continential U.S. and Canada. You 
have to look at this not from a standpoint of 1,000 agents, but 
about 250 at any given time that you can put out there because 
you have to run three shifts a day, 24 hours a day, 7 days a 
week, 365 days a year. So at any given point in time, we have 
at best 250 agents to patrol 4,000 miles of border. It is 
incredibly easy to slip across our borders, especially if you 
have the vast resources like a terrorist network like al-Qaeda.
    We are also disappointed that some of the strategies that 
our agents are forced to utilize are counterproductive. The 
strategy of deterrence that has been in place for a number of 
years has always appeared ridiculous to the Border Patrol 
agents--the notion that just sitting in one spot is going to 
deter people from coming into this country. Well, now it is 
downright dangerous because terrorists are not going to be 
deterred simply by looking at a Border Patrol agent in a fixed 
position. We need to be allowed to pursue people who are coming 
across the border, to actually patrol, as our name suggests.
    The dedicated men and women who comprise the United States 
Border Patrol and the other parts of the Department of Homeland 
Security need a lot of support from Washington, D.C., in the 
form of additional resources and manpower, but they also need 
your support in telling the policy makers to allow us to do our 
job, to treat us fairly so that we can hang on to the best and 
the brightest so that we can at least try to protect America.
    One of the pieces of legislation that was introduced on the 
first day of this Congress was H.R. 98, which would establish a 
counterfeit-proof employment eligibility card, which is our 
Social Security card. I believe that this is one of the most 
important things that this Congress can do to cut off the flow 
of illegal immigration coming into this country. As long as we 
have to deal with millions of people coming across the border 
every year in search of employment, we have no chance of 
picking off those few terrorists who are mingled into that mix. 
We have to go after the people who are hiring illegal aliens if 
we want to have any hope at all of gaining any semblance of 
control over our borders.
    I thank you very much for your time and attention and would 
be more than happy to answer any questions you might have.
    Mr. Hostettler. Thank you, Mr. Bonner.
    [The prepared statement of Mr. Bonner follows:]

                   Prepared Statement of T.J. Bonner

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

    Mr. Hostettler. Mr. Eggle.

TESTIMONY OF ROBERT EGGLE, FATHER OF KRIS EGGLE, SLAIN NATIONAL 
                      PARK SERVICE RANGER

    Mr. Eggle. Thank you, Mr. Chairman. I request that 
simultaneous with my remarks, I be able to show a CD with some 
shots, and that I will have other documents to submit for the 
record.
    Mr. Hostettler. Without objection, Mr. Eggle.
    Mr. Eggle. Chairman Hostettler, ladies and gentlemen, an 
honor it is to speak before this Committee. Thank you. Yes, on 
August 9, 2002, my son made that supreme sacrifice of defending 
our country at our border. That day was my personal 9/11.
    You may be asking yourself why I am here testifying today 
since my son was a National Park Service Ranger, not a Border 
Patrol agent. The answer is this. Because the Government did 
not see fit to give the Border Patrol adequate resources to 
secure our borders, Kris and other law enforcement rangers at 
Organ Pipe Cactus National Monument assisted the outmanned and 
out-gunned agents when they could. So, you see, if Congress had 
done its duty back then and had adequately funded and equipped 
our Border Patrol, my son, Kris, might well be alive today.
    As a National Park Service volunteer for Organ Pipe Cactus 
National Monument, I personally worked on the 32-mile barbed 
wire fence that constitutes our border with Mexico. I did this 
many days for 3 years preceding Kris's murder. Post his murder, 
I have returned six times to that same park. Our border was 
then, and still is, terribly broken.
    Most importantly today, I project to you the magnitude of 
this illegal immigration. Border Patrol reported record illegal 
alien arrests and record drug seizes for 2004. Yet by the 
Border Patrol's and other experts' own admission, they 
apprehend only ten to 15 percent of the total smuggling of 
drugs and people. The magnitude is not what is interdicted, 
rather, the huge number that gets through. That is our 
challenge today. This 85 to 90 percent of successful smuggling 
represents thousands each day and unbelievable tons of dope.
    USA Today newspaper just last week, and Time magazine last 
fall, framed this magnitude. Also, dangers increase as more 
shootings and assaults continue against our Federal law 
enforcement officers. In the last 3 months alone, there have 
been 87 assaults just in the Tucson sector of our Arizona-
Mexico border.
    The number of so-called OTMs, Other-Than-Mexicans, 
apprehended by Border Patrol has more than doubled in the last 
3 years, from 37,000 in 2002 to 75,000 in 2004. These numbers 
include aliens from Afghanistan, Egypt, Indonesia, Iran, China, 
Iraq, Lebanon, North Korea, Saudi Arabia, Yemen, and virtually 
every other country on earth, and these are just the ones that 
were caught, and, in most cases, released into our communities 
because there were not enough detention beds to hold them.
    Previous Border Patrol increases have been incremental and 
only token, without significant tactical analysis of what truly 
is necessary. The 2,000 Border Patrolmen per year increase in 
the recent intelligence bill reform last December will yet not 
be enough to control our out-of-control borders, both South and 
North.
    Neither Border Patrol nor Homeland Security has ever 
quantified this illegal invasion, nor estimated the law 
enforcement that is truly necessary. To use military talk, I 
submit that overwhelming force is now necessary.
    There is no silver bullet. Only hard police work and 
adequate resources from you Congressmen and Congresswomen will 
recover this deficit.
    Matters are made worse by Mexican government encouragement, 
especially the recent ``How to Trespass Safely in the U.S.'' 
comic book. President Bush or Secretary Rice must speak very, 
very frankly to Vicente Fox about Mexico respecting our 
sovereignty and addressing its problems there rather than 
exporting them here.
    Reinforcement of Immigration and Customs officers and major 
increases in detention facilities are imperative. An element of 
deterrence has too long been avoided, but is now vital. ICE 
reinforcement should include personnel and vehicles to enable 
pick-up and transport of illegals arrested by State and local 
authorities. One should never again hear of calls to 
Immigration where State and local law enforcement are told 
simply to release illegals because there is no one to come and 
pick them up.
    Federal courts desperately need reinforcement to prosecute 
these drug and people smugglers. For example, the U.S. Attorney 
in Tucson cannot keep up. Magistrates specializing in 
immigration and smuggling should be added geographically.
    Practically speaking, recruiting, training, and deployment 
of these new Border Patrolmen will take years, yet the need is 
now! Existing Federal law enforcement officers, such as 
National Park Service and Bureau of Indian Affairs, are doing 
magnificent work to hold our line as best they can. Immediate 
augmentation of these agencies already on the ground through 
Homeland Security would project corrective action much more 
quickly.
    My son was murdered while defending our border. There were 
inadequate Border Patrolmen on the ground then. I was outraged 
that there was no anger expressed then by any Federal official 
that a Federal law enforcement officer, safely within our 
country, could be murdered and ambushed by a Mexican crime 
spillover.
    Two days before Christmas 2003, I attended a funeral in 
Yuma, Arizona, of a young Border Patrolman who drowned in the 
Colorado River while attempting to save illegals who should not 
have been there. This was tragic, so very tragic.
    Gentlemen and ladies, I will make this very personal to 
you. I challenge each of you to view this proposal of more 
Border Patrolmen as if one of your sons or daughters would be 
so deployed. Each of you would, I am sure, want to deploy 
patrolmen sufficient to make that duty as safe as possible for 
your son or daughter.
    I would not suffer any of you to feel the void, the loss, 
that I, my wife, and my daughter have felt or that which has 
been experienced by the 9/11 families. My wife, although not 
able to attend today, very much wanted to be here to tell you 
how a mother feels about the murder of her son.
    In closing, I suggest that each of you who have not already 
been there need to see this problem up close to really 
understand it. I volunteer to help escort you to view our 
broken borders. Relentless acquiescence should no longer 
prevail. Let us work together on this problem before more lives 
are lost.
    Thank you for allowing me to speak to you today. Good day.
    Mr. Hostettler. Thank you, Mr. Eggle.
    [The prepared statement of Mr. Eggle follows:]

                   Prepared Statement of Robert Eggle

    Chairmen Hostettler, ladies, and gentlemen, it is an honor to speak 
before this Subcommittee today--thank you.
    On August 9th, 2002, my son made that supreme sacrifice in 
defending our country at our border. That day was my personal 9/11.
    You may be asking yourself why I am here testifying today since my 
son was a National Park Service Ranger and not a Border Patrol agent. 
The answer is this: Because his government did not see fit to give the 
Border Patrol adequate resources to secure our borders, Kris and the 
other Rangers at Organ Pipe Cactus National Monument assisted the 
outmanned and outgunned agents when they could. So you see, if the 
government had done its duty back then and adequately funded and 
equipped the Border Patrol, my son might well be alive today.
    As a National Park Service volunteer for Organ Pipe Cactus National 
Monument, I personally worked on the 32-mile barbed-wire fence, our 
border with Mexico. I did this many days for three years preceding 
Kris' murder. After his murder, I have returned six times to that same 
area. I have seen with my own eyes and experienced first-hand through 
my grief, how our border was terribly broken then . . . and still is 
now.
    Most importantly today, I illustrate to you the magnitude of 
illegal immigration through our border. Border Patrol reported record 
illegal alien arrests and record drug seizures in 2004. Yet, by Border 
Patrol's own admission, the apprehensions are only 10 to15 percent of 
the total smuggling of drugs and people. The magnitude is not what is 
interdicted, rather the huge number which gets through. That is our 
challenge!
    This 85 to 90 percent of successful smuggling represents thousands 
of illegal aliens each day and unbelievable tons of dope.
    USA TODAY newspaper and TIME magazine, last week and last fall, 
respectively, framed the magnitude of this problem. Also, dangers 
increase as more shootings and assaults continue against our federal 
law enforcement officers. In the last three months alone, there have 
been 87 assaults in the Tucson sector of Arizona.
    The number of so-called OTMs, or other than Mexicans, apprehended 
by Border Patrol has more than doubled in the last three years--from 
37,316 in 2002 to 75,389 in 2004. These numbers include illegal aliens 
from Afghanistan, Egypt, Indonesia, Iran, Iraq, Lebanon, North Korea, 
Saudi Arabia, Yemen, and virtually every other country on Earth. And 
these are just the ones who were caught--and, in most cases, released 
into our communities because there are not enough detention beds to 
hold them.
    Previous Border Patrol increases have been incremental and only 
token, without tactical analysis of what is truly necessary.
    Even the 2000 Border patrolmen per year increases in the Intel 
Reform bill signed into law last December will not be enough to 
properly manage our out-of-control borders, both south and north.
    Neither Border Patrol nor Homeland Security has ever quantified 
this illegal invasion, nor estimated the law enforcement that is truly 
necessary. To use military talk, overwhelming force is now necessary.
    There is no silver bullet--only hard police work will recover this 
deficit.
    Matters are made worse by Mexican government encouragement of 
illegal immigration, especially the recent ``How to Trespass Safely to 
the U.S.'' comic book. President Bush or Secretary Rice must speak very 
frankly to Mexican President Vicente Fox about respecting our 
sovereignty and addressing Mexico's problems rather than exporting them 
here.
    Reinforcement of Immigration and Customs officers and major 
increases in detention facilities are imperative. An element of 
deterrence has too long been avoided, but is now vital. ICE 
reinforcement should include personnel and vehicles to enable pick up 
and transport of illegals arrested by state and local authorities. No 
one should ever again hear of calls to ICE where state and local law 
enforcement officials are told to release illegal aliens because no one 
can come to pick them up.
    Federal Courts also desperately need reinforcement to prosecute the 
drug and people smugglers. For example, the U.S. Attorney in Tucson 
cannot keep up. Magistrates specializing in immigration and smuggling 
should be added on a geographic basis.
    Practically speaking, recruiting, training, and deploying these new 
Border Patrolmen will take years. The need is now! Existing Federal Law 
Enforcement Officers, such as National Park Service and Bureau of 
Indian Affairs are doing magnificent work to hold the line the best 
they can. Immediate augmentation of these agencies through Homeland 
Security would provide corrective action much more quickly.
    The CLEAR Act should also be enacted immediately in order to 
achieve a great force multiplier from state and local law enforcement.
    My son was murdered while defending our border because there was an 
inadequate number of Border Patrolmen. I was outraged that there was no 
real anger expressed by any Federal official that a Federal Law 
Enforcement Officer, safely within our border, could be ambushed and 
murdered in a Mexican crime spillover.
    Two days before Christmas 2003, I attended the funeral in Yuma, AZ 
of a young Border Patrolman who drowned in the Colorado River while 
attempting to save illegals who should not have been there. Tragic, so 
very tragic.
    Ladies and Gentlemen, I will make this personal to you. I challenge 
each of you to view this proposal of more Border Patrolmen as if one of 
your sons or daughters would be so deployed. Each of you would, I am 
sure, want to deploy patrolmen sufficient to make duty as safe as 
possible for your son or daughter.
    I would not suffer any one of you to feel the void--the tremendous 
loss--that I, my wife and daughter have felt, or that experienced by 9/
11 families. My wife, although unable to attend, very much wanted to be 
here to tell you how a mother feels about the murder of her child.
    In closing, I suggest that you each need to see this problem close 
up to really understand it. I volunteer to help escort you to view our 
Broken Borders. Relentless acquiescence should no longer prevail. Let 
us work together on this problem before more lives are lost.
    Thank you for allowing me to speak to you.

    Mr. Hostettler. At this time, the Subcommittee will turn to 
questions.
    Mr. Gadiel, please tell us how most of the 9/11 families 
feel about the 9/11 act authorizations for more Border Patrol, 
and secondly, as a matter of priority, do you think border 
security takes precedence over other parts of the budget?
    Mr. Gadiel. It doesn't seem possible to me that anything 
could be more important than defending the United States from 
foreign invasion. I mean, it's a basic first obligation of the 
Constitution. I can't imagine that there are no items in the 
Federal budget that couldn't be sacrificed for this purpose.
    And as far as the families, I obviously can't speak for all 
of them, I've never met all of them, but as I said in my 
statement, without exception, every one I have ever spoken to 
says they feel let down by their Government and they recognize 
one of the failures, that of keeping these people out. I mean, 
the fact that these 19 mass murderers got into this country, 
often coming into and leaving the country on numerous 
occasions, many entrances and exits, is pretty clear proof that 
our borders are not secure.
    Mr. Hostettler. When you were advocating last year for the 
9/11 bill, did anyone ever dispute the notion of significantly 
increasing our Border Patrol?
    Mr. Gadiel. I never heard anybody dispute that particular 
point. No, I can't say that I have.
    Mr. Hostettler. Thank you.
    Mr. Eggle, as an experienced war veteran, can you tell us 
how you assess, in your experience at the border, can you 
assess the security situation at the Southwest border today?
    Mr. Eggle. It's terrible. As I indicated earlier, the 
border is tragically broken. When I first began working there, 
the 32 miles of border that I worked on consisted of a four-
wire barbed wire fence. In Michigan, I and my family have a 
centennial farm where we have a small cow-calf operation and my 
absolutely worst fence to hold my cattle in was better than our 
national border.
    To me, I only submit the word that it was obscene. It had 
terrible holes on it. The smugglers would just drive through 
it. They wouldn't even stop to take time to clip the wires. 
There was really no barrier. They just drove over it. Most of 
my time there was fixing these holes.
    Security-wise, there were not sufficient Park Rangers to 
respond. There were, of course, no Border Patrolmen to respond.
    Mr. Hostettler. Is it possible your son, Mr. Eggle, would 
not have been confronted by the drug gang had the border been 
enforced with proper resources?
    Mr. Gadiel. Absolutely, yes. My son's killers were fleeing 
and having a running gun battle with the Mexican authorities on 
a road right adjacent to our border, and as they neared the 
edge of the Mexican village, they just did a 90-degree turn, 
drove through a gaping hole into our desert. Had there been 
proper border and Border Patrolmen sufficient to have a 
controlled, tactical response, it would not have been necessary 
for my son, joining up with one single, solo Border Patrolman, 
to respond. That was the place for a tactical special response 
team of many members to engage. There simply at that time were 
not the people to respond properly.
    Mr. Hostettler. Thank you, sir.
    Mr. Bonner, you and other witnesses touched on this 
briefly, but could you elaborate on the overall morale of the 
Border Patrol?
    Mr. Bonner. Sure. I've been an agent, as I mentioned 
earlier, for 27 years. I've never seen it lower. Agents are 
demoralized. The Congressman talked about how OTMs will show up 
at our stations in South Texas. They will take taxicabs there 
and they will demand to be processed quicker than our agents 
can keep up with that, saying, ``We know what your internal 
guidelines are. You have to get us out of here in a certain 
amount of time.''
    Our agents signed up to be law enforcement officers, not 
Wal-Mart greeters, not social workers. We want to go out, 
enforce the laws, protect America, and our inability to do that 
because of policies that don't allow us to do that and lack of 
funding is a source of extreme frustration and demoralization.
    Mr. Hostettler. Thank you.
    Mr. Eggle. May I add a comment to that, please?
    Mr. Hostettler. Yes.
    Mr. Eggle. Our remarks here do not disparage at all the 
individual patrolmen or law enforcement officers like our 
National Park Service officers. These young men are of great 
quality and they are committed. They are very committed, just 
like our young soldiers in Iraq that you may have seen 
interviewed. They want to do good work. We just need to give 
them the tools to do it with.
    Mr. Hostettler. Thank you, sir.
    Mr. Ortiz. Mr. Chairman, if I may, I think that we have 
time to correct what needs to be corrected. There is a 
supplemental coming up, and if we could work on that 
supplemental to give the Border Patrol what they need, and let 
me give you an example.
    There are only three or four people in the McAllen Sector 
who have a top secret clearance--four--and they are the only 
ones that can tap to the CIA, the FBI. You can't do it. They 
need reinforcement. They need the training. And until we do 
that, they just have to be released. They have to turn them 
loose. They cannot get into the system because they don't have 
authorized people to do that.
    But with this coming supplemental, I hope that we can join 
together and correct what we need to correct. Thank you, Mr. 
Chairman.
    Mr. Hostettler. Thank you, Mr. Ortiz.
    The chair now recognizes the gentlelady from California for 
5 minutes, Ms. Lofgren.
    Ms. Lofgren. Thank you, Mr. Chairman.
    Before getting into my questions, I would like to 
especially thank Mr. Gadiel and Mr. Eggle for being here, 
having lost two sons. I just can't imagine how difficult that 
is. That you have turned that horrific loss into an effort to 
do something for your country is especially admirable. I thank 
you for your efforts and grieve with you for your loss.
    Obviously, the situation we have here is completely 
unacceptable. Congressman Ortiz, I am glad you brought those 
tapes. I mean, it's just astonishing to look at that. And I'm 
mindful, in California, they say more walk than talk. I think 
in Texas, it's all hat, no cattle. There's been a lot of talk, 
but really, when you take a look at where the money is, I 
thought it was 200. But to hear that when you look at full-
time-equivalent it's less than that, Mr. Bonner, in the 
President's budget, it's absurd. I mean, it's absurd. So I 
think we have a right to demand from the Administration a more 
aggressive approach, some cattle, not just a hat, and I think 
that this hearing may be part of that effort.
    I want to talk about, just briefly, we focused on the 
Southern border, and that's appropriate, obviously. There are 
huge issues there. But I'm also extremely concerned about the 
Northern border, which is actually longer and less protected.
    I'm wondering, Mr. Bonner, obviously, you cannot replace 
Border Patrol agents with technology, and I hear what you are 
saying on the unmanned vehicles, but having seen some of the 
technology, if you have sufficient forces on the border, which 
clearly we do not now, the cameras and the like can be helpful, 
can they not, to an adequate force?
    Mr. Bonner. Oh, absolutely. The cameras and the sensors are 
eyes and ears, but without hands----
    Ms. Lofgren. Right.
    Mr. Bonner.--you won't catch a single violator.
    Ms. Lofgren. So I'm wondering if you know whether we have 
sufficient--obviously, we don't have sufficient agents at 
either border, but to have 250 agents for 4,000 miles at the 
Northern border is, I mean, obviously deficient. In addition to 
that deficiency, do we have sufficient camera and technology 
deployed at the Northern border, do you know?
    Mr. Bonner. No, we don't. It's my understanding that the 
Administration will be rolling out the new national Border 
Patrol strategy very shortly. I have not seen it, but I fear 
that they're going to be trying to sell the public a bill of 
goods that technology, the existing technology, is somehow a 
substitute for additional personnel, and it certainly is not. 
We need both, and one should not be at the expense of the 
other.
    Ms. Lofgren. I serve also on the Homeland Security 
Committee and serve on the Border Subcommittee and we have seen 
no indication that there is any sensible plan that is coming 
forward from the Department, in all honesty. I hope that that 
changes, but we haven't seen anything yet that makes sense.
    Just a final question on----
    Mr. Eggle. Ma'am, may I----
    Ms. Lofgren. I'm almost out of time, if I could, because I 
want to ask about the lists and the lack of any bio-indicator 
on those little sheets that you held up, Congressman Ortiz. We 
do have at the border--maybe we don't have enough of them, but 
the ability to at least do fingerprints, and we were supposed 
to have the iris scans, as well. Do you know why those bio-
indicators are not connected with the individuals who are being 
released? Obviously, we need additional space to hold people 
that should be held, but at least we should not ever have a 
confusion by name and person with the bio-indicator. Has there 
not been direction to the agents, or has there not been enough 
technology to do that, or time? Do you know what the answer to 
that is?
    Mr. Bonner. The answer is I am not sure why they are not 
doing that. Obviously, it would be more costly to have some 
type of connection between the documents. We are fingerprinting 
everyone that we come in contact with----
    Ms. Lofgren. With a digital fingerprint machine?
    Mr. Bonner. With a digital fingerprint machine, and it 
connects to the FBI's. The problem with that is that it will 
only tell us if someone has a criminal record, and, in fact, 
that system worked----
    Ms. Lofgren. Well, the problem is that our system actually 
doesn't--isn't compatible with the FBI's system.
    Mr. Bonner. Well, actually, we're making headway in that 
and the system actually worked when we nabbed one of the 
ringleaders of the Mara Salvatrucha gang from Honduras who was 
picked up by the police in Falfurrias, Texas, I believe. He was 
held and it turns out that he was the mastermind of the----
    Ms. Lofgren. We had a hearing on this very subject in the 
Homeland Security Committee yesterday, actually, and there's 
really two reasons for bio-indicators. One is a positive I.D., 
and then two is to search the records to see if you've got a 
bad guy, and they're both--I mean, they can stand on their 
own--separately as equally valuable.
    I see my time is up, but if you know or if we could find 
out, Mr. Chairman, why this technology is not being utilized, 
it's just a mystery to me and I'm sure--I don't blame the 
agents, but it's obviously a systematic problem that needs to 
be corrected, and I yield back.
    Mr. Bonner. I would just like to add that the fingerprint 
system does not tell us if a person is a terrorist because 
terrorists typically do not have criminal records. What we have 
to do in that instance is dial an 800 number with the name that 
they give us, which is going to be a phony name if they're a 
terrorist----
    Ms. Lofgren. No, I----
    Mr. Bonner.--to see if it matches a watch list, and that 
system really needs improvement.
    Ms. Lofgren. No, I understand that, but it would prevent 
the guy coming back a second or third time with a different 
name and being----
    Mr. Bonner. Yes, it would.
    Mr. Hostettler. I thank the gentlelady.
    The bells have rung for votes. The votes will last, 
according to our intelligence, about 45 minutes. We don't want 
to suspend this hearing for that long. I will recognize the 
gentleman from Iowa for 5 minutes for questions, and then we 
will suspend shortly and will come back and continue the 
hearing even during the votes.
    The gentleman from Iowa will be recognized for 5 minutes.
    Mr. King. I thank the Chairman.
    My first observation is, I don't know when I've seen more 
cumulative conviction on the part of a panelist, four 
panelists, than I've seen here today, and I appreciate all your 
testimony.
    As I sit here and listen to it all across the board, I'm 
going to speak to some numbers here, and I think in the end, 
I'm probably going to direct my first question to Congressman 
Ortiz.
    I recall the Ranking Member's opening remarks with regard 
to 40 percent not responding to appear that were OTMs. And then 
I recall testimony here by one of our panelists, and I believe 
it was Mr. Ortiz's, that 70 percent of the total immigrant 
population, illegal immigrant population, is not showing up. 
And I recall testimony in this same room from the Attorney 
General Ashcroft that of those adjudicated for deportation, 84 
percent don't show up. I recall a broader number--I think your 
film, Mr. Ortiz, said was 70 percent, and I think that you said 
they are erratic numbers and they go as high as 90 percent that 
don't show up. And we're talking about numbers of maybe 15,000 
in the McAllen Sector of OTMs.
    I'm looking at some overall numbers. I believe, Mr. Eggle, 
you testified about 1.2 million overall apprehended, and out of 
that--that's possibly ten to 15 percent. That's a hard number, 
I know, to nail that one down, and I don't want to stick with 
that one, but I do know that around 300,000 are ordered removed 
every year.
    So you add all these numbers up and I'm going to propose 
this, that, first of all, I'm going to ask Mr. Ortiz to give a 
definition of the distinction between Other-Than-Mexicans and 
Mexicans with regard to national security within the context of 
this concept, and that is that if you regard terrorists as 
needles in this haystack of illegal immigrants, we have this 
massive haystack here that is at least 1.1 or 1.2 million and 
it may be--it's probably several times that, and it may be ten 
times that. Wouldn't it be to our interest to reduce the 
overall size of that haystack dramatically without regard to 
whether it is OTMs or the general population of illegal 
immigrants?
    Mr. Ortiz. Well, we have to obey the law, and if it 
requires that everybody be stopped, we have to do that, but let 
me give you an example. The figures that I have is 90 percent 
or more did not show up for deportation. This is a list one, 
two, three, and a half pages, 135 countries that these illegals 
represent--135 countries. Now, I think that we do have a 
responsibility. We would probably be unable to stop every 
immigrant, but at least those that we stop, let's be sure that 
we know who they are.
    Mr. King. I thank you, Mr. Ortiz, and watching the clock 
tick, I direct my next question to Mr. Bonner quickly, and that 
is if we can reduce the size of this haystack, could you 
identify the needles a lot easier?
    Mr. Bonner. Absolutely.
    Mr. King. And that's the point that I'd like to make in 
this. There are so many inequities. To define the difference 
between OTMs and the general population, I know there is a 
legal distinction there, how the deportation takes place and 
our agreements with those countries, but I'd also submit that 
those that come in our Southern border come through Mexico on 
the way to the United States and we have not leveraged our 
political pressure on our neighbors to the South in order to 
encourage them to slow that flow of illegals that are coming 
through. The most countries that you mentioned, I believe, were 
Guatemala, Nicaragua, El Salvador, et cetera.
    So that's my point here, is that we need to leverage our 
foreign relations with Mexico and with all the countries south. 
We need to shrink the size of this haystack. We need to give 
these resources, and I'll tell you, I'll stand with those 
resources for the people that have put their lives on the line 
for the security of the American people.
    I thank you, Mr. Chairman. I yield back.
    Mr. Hostettler. I thank the gentleman. At this time, the 
Subcommittee will recess.
    Mr. Ortiz. Mr. Chairman, if I may, I know we have several 
votes. I have to go to a readiness hearing after.
    Mr. Hostettler. Yes, sir.
    Mr. Ortiz. I would like to be excused.
    Mr. Hostettler. Yes, sir. Thank you very much, Mr. Ortiz. 
You are excused.
    Mr. Ortiz. Thank you.
    Mr. Hostettler. If the remaining members of the panel will 
stay, I know that we have at least one other Member of the 
Subcommittee that would like to ask questions. We will be away 
for potentially ten to 20 minutes, and then we'll return for at 
least one more Member's questions. I thank you for your 
forbearance. We are recessed.
    [Recess.]
    Mr. Hostettler. The Subcommittee will come to order. I 
thank, once again, the witnesses for your indulgence and I 
apologize for the schedule of the House, but we have been 
voting. We are back, and I now yield to the gentlelady from 
Texas, the Ranking Member, Ms. Jackson Lee, for questions.
    Ms. Jackson Lee. I thank the Chairman for yielding and I 
thank him for his indulgence. In fact, we just, I think, 
completed voting on my amendment that I had to present on the 
floor of the House. It seems, Mr. Chairman, that we are 
discussing tragedy or terrorism in all areas of this Congress 
here today in this body, and then on the floor of the House, we 
were discussing the continuity resolution in case of the 
elimination of large numbers of members of this body.
    But as we concern ourselves about the preservation of this 
body, meaning the Congress of the United States, I think the 
American people have sent us here to be concerned about their 
preservation. And so I hope, as I indicated at the beginning, 
that this hearing generates the answers for the Administration 
to reevaluate where they stand on this question. I, frankly, 
believe they have the opportunity to reevaluate. They can do so 
in the budget resolution. They can do so in the support of an 
amendment by members of the Budget Committee and/or by an 
altering of their position for the appropriations process.
    Why don't I, Mr. Bonner, and let me thank you and your 
organization for its support of the CASE Act of 2004 and 2005. 
Portions of that bill were included in the intelligence reform 
legislation and I think it put us one step closer to addressing 
the question of human trafficking in its ugliest form. But I 
would ask the question, sort of the real dark side, if you 
will, of what would occur if we continue at these numbers of 
Border Patrol agents, if we continue at this pace of not 
filling or adding to slots of individuals who I've spoken to 
who simply want to be considered professional law enforcement 
officers, want to be able to have the kind of support system 
that allows them to do their job. What direction is this 
country going in if we fail to answer the call of 2,000 Border 
Patrol agents at this time in fiscal year '06?
    Mr. Bonner. I believe that we are just sticking our chin 
out and asking the terrorists to take another poke at us. We 
are asking for another 9/11 if we don't get serious about 
securing our borders.
    Ms. Jackson Lee. And what role do Border Patrol agents play 
in that, because, as you well know, there is a great deal of 
talk about the technology, of which I'm a strong advocate, 
technology that is in the hands of Border Patrol agents, but 
technology in general--screening, video cameras, other kinds of 
sophisticated technology. But the real question I'm asking is, 
what if we don't move on increased numbers of Border Patrol 
agents?
    Mr. Bonner. The technology that anyone speaks about can 
identify human forms coming across the border, so it can give 
you an idea of how many people are getting by you. But it is 
wholly incapable of apprehending even a single violator. So, 
for example, if you put out the most sophisticated technology, 
we might know with a certainty the number of people who are 
entering our country illegally and we might know how many are 
getting by us, but that would not make us any safer at all. The 
only way to ensure our safety is to apprehend everyone who 
comes across the border, because while the overwhelming 
majority of those people are otherwise law-abiding people who 
are simply looking for economic opportunity, sprinkled in that 
mix, we know are criminals, and we know terrorists are also in 
that mix.
    Ms. Jackson Lee. I am glad you raised that point, because 
the other aspect of the need is detention beds, and I'm very 
glad that this Committee led the fight to separate children 
that might have been previously detained in detention beds, put 
them under Health and Human Services. Unaccompanied minors have 
come in and we've been able to isolate that problem.
    But tell me what it means. I've held up a series of 
articles, a number of articles that accounted for stories about 
al-Qaeda's connection coming across. What does it mean if we 
don't have the sufficient number of detention beds? By the way, 
I spent some time, as you well know, looking at facilities at 
the border at certain areas in Texas, and for lack of a better 
word, it's skimpy. I mean, there's simply--it's skimpy. What 
does it mean when you don't have detention beds to handle what 
has been classified now as OTMs, and then we know there are a 
lot of gangs that are mixed in with that, and simply what you 
do is give a piece of paper and say, show up in court. What is 
the value of the detention bed that I think needs to be spoken 
to at this hearing very specifically?
    Mr. Bonner. The value of detention beds is that when people 
from these countries other than Mexico come here, we can hang 
on to them for the amount of time that it takes, and it's 
generally from a few days to a few weeks, to generate the 
travel document necessary to convince their host nation that 
they are, indeed, a citizen of that country, and we have 
treaties with all these countries whereby they will accept 
their citizens back if they break our immigration laws.
    Well, because these people do not have passports, we have 
to go through this process. We wouldn't want a bunch of 
Australians dumped on our shores by another country saying, 
these are U.S. citizens. We'd say, well, wait a second. No, 
they're not. So that's a common sense thing that says we have 
to prove to the country that they are actually from there, but 
that takes bed space and it takes money.
    Ms. Jackson Lee. All contributing to the bottom-line safety 
and security of America. And I'm very glad that you said in one 
of your sentences the distinguishing factor between those 
undocumented that do come across that we're working on that 
happen to be coming for economic opportunity. The question is 
that in the mix, is what you're saying, you are frustrated by 
the fact that al-Qaeda may be coming across the border and you 
are frustrated by being incapable, because of the resources and 
personnel, of determining whether that is happening.
    Mr. Bonner. The only way you can know with a certainty is 
if you actually apprehend someone. I am not sure if you were 
here when I made the pitch for H.R. 98, but I'll make it again. 
I think that the way that we cut off most of the traffic coming 
across our borders is to come up with a system of employer 
sanctions that really works, and that would enable us to have a 
guest worker program that would actually work in the interest 
of this country.
    Ms. Jackson Lee. Mr. Chairman, you have been very kind. I 
would ask for an additional minute just to pose a question to, 
is it Mr. Eggle? Eggle? Am I pronouncing it----
    Mr. Eggle. Eggle.
    Ms. Jackson Lee. Sir, if I might. Mr. Chairman, I ask 
unanimous consent.
    Mr. Hostettler. Without objection.
    Ms. Jackson Lee. Thank you very much. Thank you, Mr. 
Bonner, very much.
    You heard the testimony, I believe, and you understand that 
we're here today hopefully to find some unity and consensus on 
being able to avoid the violence and tragedy that fell upon 
your son, and we thank you for his service and his willingness 
to step out of his role and become, as I understand it, a 
temporary Border Patrol agent. Would you just again very 
briefly give me that impact? He was in the Forestry Service, as 
I understand, and he got called to be a Border Patrol agent? Is 
that my understanding?
    Mr. Eggle. He was in the National Park Service as a law 
enforcement ranger and they have 32 miles of Mexican border 
within the park. And so the Park Service Rangers interacted 
with the Border Patrol as a sister agency and developed 
personal relationships that they would support each other. 
These young men are of high caliber and quality that they want 
to do as much as they can, so they very often assisted the 
Border Patrol.
    My son and other National Park Service Rangers, seeing the 
invasion of the park all along the 30 miles of border where the 
smugglers would drive through, or in many cases just walk 
through and walk 30 or 40 miles, took it upon themselves to 
acquire special operations skills and practiced themselves to 
develop the ability to track these people out of the desert. 
They interacted a lot with the Indian Shadow Wolves Native 
American tracker unit at Tohono O'Odham Indian Reservation next 
door and were under their tutelage a lot to acquire native 
tracking skills, so that my son and his coworkers and now the 
law enforcement rangers at Organ Pipe, as we speak, do a great 
deal of man tracking in the desert to apprehend the bands of 
illegals and also a great number of bands of people carrying 
backpacks of drugs.
    Ms. Jackson Lee. Thank you, and again, my sympathy.
    Mr. Bonner, on that case, those facts, again, do you think 
we need the 10,000 Border Patrol agents, or more than that, 
that was in the intelligence bill, and as you recall, you 
testified on the CASE Smuggling Act. We talked about rewards 
for those who would give evidence about smugglers. Do you still 
adhere that that is an effective tool and do we need the 10,000 
Border Patrol agents that the intelligence bill required or 
indicated?
    Mr. Bonner. The short answer is yes to both questions. I 
think that, at a minimum, we need 10,000 additional Border 
Patrol agents. For the first few years, that's probably all 
that we can reasonably absorb, but I believe that we should be 
adding as many as possible that the organization can absorb.
    And as to your final point, that has worked well. Giving 
rewards has worked well in many other areas of law enforcement 
and there's no reason to believe that it would not also work 
well in the terrible tragedy of human trafficking.
    Ms. Jackson Lee. Mr. Chairman, I want to thank you very 
much for your indulgence. Again, let me just conclude by 
offering that I hope that this year, we'll look at 
comprehensive immigration reform. Maybe you gentlemen, or one 
of you, may be before us on that issue. But as we do that, 
since we can't do it tomorrow, since we're moving in that 
direction, I know one thing that we can engage in right now is 
to restore the full request for Border Patrol agents in the 
budget resolution and ultimately in the appropriations to 2,000 
for FY 2006 and then begin to look at the outlying years for 
the 10,000.
    I think what we owe to Mr. Eggle and his family is, in 
tribute to his son, is to respond to that added need. We can 
put fences, and I guess it's my opinion we can put--you know, 
there's a cry for fences, but I think we've got some fences and 
some places no fences. The human factor of being able to be 
engaged in this law enforcement and to detain potentially 
dangerous individuals, I think is an important, important 
responsibility that is going undone, and Mr. Chairman, I hope 
that we can work together on encouraging the further providing 
of those Border Patrol agents. I yield back my time.
    Mr. Hostettler. I thank the gentlelady and I look forward 
to working with the gentlelady and the rest of the minority on 
supplying these resources to the men and women of the Border 
Patrol.
    I would like to close this hearing, but before I do, I was 
just intrigued, Mr. Bonner, by a statement that you made with 
regard to employer sanctions, the need to have teeth in the 
area of employer sanctions. That is not necessarily always the 
jurisdiction of the Border Patrol, but you are suggesting--I 
don't want to put words in your mouth. Why do you think we need 
to aggressively approach the issue of employer sanctions?
    Mr. Bonner. Conservatively speaking, 98 percent of the 
people who cross our borders are looking for economic 
opportunity. Unless we deal with that, we are going to continue 
to be flooded with millions of people crossing our borders 
illegally every year, and I don't care how many Border Patrol 
agents you put out there on the line, we will be overwhelmed by 
that volume of traffic and we will be unable to have a good 
shot at picking off the terrorists and the criminals.
    Mr. Hostettler. That being said, do you support the 
inclusion of an additional 800 ICE agents per year for the next 
5 years?
    Mr. Bonner. Absolutely.
    Mr. Hostettler. Thank you. In conclusion, Mr. Eggle, you 
and I spoke on the way into the second part of this hearing 
about a phenomena that you observed when you were on the 
Southern border recently with the Native American tribes there. 
Could you share that with us?
    Mr. Eggle. Yes, sir. Thank you. Just a month ago, I was at 
Organ Pipe Cactus to escort our Michigan Senator Stabenow for a 
visit, and while there, I visited the Tohono O'Odham Indian 
Reservation right adjacent to Organ Pipe. I mentioned the 
Shadow Wolves just a little earlier, and they had been really 
gracious with Kris. They taught and they continue to teach our 
rangers tracking skills.
    But during my visit there, two of them, they introduced me 
to a delegation of Blackfeet Indians from the Blackfeet 
Reservation on the Montana-Canada border who were there to 
interact with the Shadow Wolves and get training on how to 
interdict the smuggling that was going through their Blackfeet 
Reservation, so that I just wanted to dramatize that our 
concerns are not just at the Southwest border, but on the North 
border, too.
    I also mentioned Border Patrol agents that I personally 
know in Sioux St. Marie, Michigan, who talk of patrolling the 
St. Mary's River and the Great Lakes in deep draft boats that 
can't go into the shallows to chase the significant boat 
traffic that is coming across the Great Lakes on our Michigan 
border with Canada because they have not been updated with new 
equipment to do their jobs. They are frustrated. Thank you, 
sir.
    Mr. Hostettler. Thank you, Mr. Eggle, and I would like to 
thank all the witnesses for your appearance here today and 
your----
    Ms. Jackson Lee. Mr. Chairman?
    Mr. Hostettler. Yes?
    Ms. Jackson Lee. May I just inquire. I'd like to submit for 
the record news articles compiled by Congressman Ortiz. I'm not 
sure whether it's been submitted, but I'd ask unanimous consent 
to submit these articles dated March 1, 2004, March 3, 2005, 
which is a compilation of all of the intrusions into our 
border. I think the focus is on the Southern border, but 
obviously the northern border too. And let me also add my 
appreciation to Congressman Ortiz for his work that he's done 
in this area.
    Mr. Hostettler. Without objection, it can be added to the 
record.
    [The information of Mr. Ortiz follows in the Appendix]
    Mr. Hostettler. All members will have seven legislative 
days to add remarks to the record.
    The business before the Subcommittee being completed, we 
are adjourned.
    [Whereupon, at 1:45 p.m., the Subcommittee was adjourned.]


                            A P P E N D I X

                              ----------                              


               Material Submitted for the Hearing Record

         Prepared Statement of Congresswoman Sheila Jackson Lee
    The Bureau of Customs and Border Protection is responsible for 
overall border enforcement. Within the bureau, a distinction is made 
between border enforcement at and between points of entry. This hearing 
is about funding for additional border patrol agents for the division 
within the bureau that is responsible for border enforcement between 
points of entry, the United States Border Patrol (USBP). The primary 
mission of the USBP is to detect and prevent the entry of terrorists, 
weapons of mass destruction, and unauthorized aliens into the country, 
and to interdict drug smugglers and other criminals between official 
points of entry.
    The USBP patrols 8,000 miles of international borders with Mexico 
and Canada and the coastal waters around Florida and Puerto Rico. The 
Northern Border with Canada touches 12 states and is more than 4,000 
miles long. It has vast mountain ranges such as the Rockies, the Great 
Lakes, many different river systems, and, in the winter, heavy snow and 
bitter cold temperatures. The Southwestern border with Mexico touches 
only four states and is less than half as long as the Northern Border. 
The Southwestern border has large tracts of desert land where 
temperatures average well over 100 degrees for much of the year, 
mountain ranges, and the Rio Grande along the Texas border.
    The Southwestern border accounts for more than 97% of the illegal 
alien apprehensions. Consequently, the USBP's main emphasis along the 
Southwestern border is to contain unauthorized immigration. Along the 
Northern border, the main concerns appear to be vulnerability to 
terrorist infiltration and the proliferation of cross-border smuggling.
    The USBP also utilizes advanced technology to augment its agents' 
ability to patrol the borders. These technologies include light towers, 
mobile night vision scopes, remote video surveillance (RVS) systems, 
directional listening devices, unmanned aerial vehicles (UAVs), and 
various database systems. These so-called ``force multipliers'' allow 
the USBP to deploy fewer agents while still maintaining its ability to 
detect and counter intrusions.
    The National Intelligence Reform Act contains a provision requiring 
the USBP to add 2,000 agents to its workforce each year from FY2006-
2010. Notwithstanding that provision, the administration's budget for 
FY2006 only requests funding for 210 additional agent positions. At the 
hearing today, we will hear testimony on the need for the additional 
agents authorized by the National Intelligence Reform Act.
    One of the reasons for additional Border Patrol Agents is to reduce 
the number of deaths that occur as a result of reckless commercial 
alien smuggling operations. Last year, 325 people died trying to cross 
the border. The previous year, 340 died. The year before that, 320 
died.
    The most effective way to stop large scale illegal immigration 
would be to establish a sensible immigration program. Several bills 
have been introduced recently that would make the necessary changes in 
our immigration laws, such as my Comprehensive Immigration Fairness 
Reform Act, H.R. 257, but we can do other things while we are working 
on comprehensive immigration reform.
    The increase in Border Patrol Agents that is called for by the 
National Intelligence Reform Act would help. Also, I have introduced a 
bill that would assist the USBP in obtaining information about 
commercial alien smuggling operations, the Commercial Alien Smuggling 
Elimination Act of 2005 (the CASE Act), H.R. 255.
    The CASE Act would establish a program to facilitate the 
investigation and prosecution, or disruption, of reckless commercial 
smuggling operations. The first point in this program would be to 
provide incentives to encourage informants to step forward and assist 
the federal authorities who investigate alien smuggling operations. The 
Immigration and Nationality Act (INA) presently provides a nonimmigrant 
visa classification for aliens who assist the United States government 
with the investigation and prosecution of a criminal organization or a 
terrorist organization. The CASE Act would establish a new, third 
category for aliens who assist with the investigation, disruption, or 
prosecution of commercial alien smuggling operations.
    The CASE Act also would establish a rewards program to assist in 
the elimination or disruption of commercial alien smuggling operations 
in which aliens are transported in groups of 10 or more, and where 
either the aliens are transported in a manner that endangers their 
lives or the smuggled aliens present a life- threatening health risk to 
people in the United States.
    In the end, security for our international borders will require all 
of these things. We will need comprehensive immigration reform, 
additional Border Patrol Agents, and new programs to assist the USBP in 
carrying out its responsibilities.

                               __________

            Prepared Statement of Representative Zoe Lofgren

    Chairman Hostettler and Ranking Member Jackson-Lee, thank you for 
holding this hearing to discuss the continuing lack of resources for 
the Border Patrol. I would also like to thank our witnesses for being 
here today to help us understand this problem that has long plagued the 
Border Patrol.
    The issues addressed in today's written testimony are not 
unfamiliar. Since I joined the Immigration Subcommittee in 1995, I have 
heard these issues and Congress has responded by more than doubling the 
Border Patrol budget in the last decade. Along with that came the more 
than doubling of our Border Patrol force. Today, we are hearing that we 
need to again double the number of Border Patrol agents by 2010.
    The Border Patrol is overwhelmed and does not have enough resources 
to address its responsibilities today. Patrolling 6,000 miles of 
sometimes rugged terrain along our land borders with Canada and Mexico 
and thousands of miles along the coastline is no easy task. It seems 
that no matter how much we continue growing the Border Patrol, there is 
always a need for more. I worry that if we again double our Border 
Patrol force to more than 20,000 by 2010, we may still be hearing about 
the need for more.
    It is time to take a step back and look at the big picture so that 
by 2010, we realize we have enough and do not need additional Border 
Patrol agents. After all, there are many other problems facing the 
Border Patrol that cannot be solved by additional Border Patrol agents, 
including the one presented here today by my friend and colleague Rep. 
Ortiz.
    We must address the root causes of the need for additional 
resources at the Border Patrol and, frankly, at all the other agencies 
charged with immigration functions. We cannot keep using the band-aid 
approach while avoiding the realistic need for broad reform. We need a 
way to separate the mother and spouse of US citizens or the hard-
working person who has lived and paid taxes in the US for years from 
the terrorist or drug and human smuggler intending to do this country 
harm. This will give our agencies in charge of immigration the time and 
space they need to address what this country should be worried about. 
As we have seen over the last decade, no reasonable amount of Border 
Patrol agents could ever handle this overwhelming mix and number of 
people and Congress has not been able to keep up with appropriations 
requests for more Border Patrol agents.
    Today, we need to support the Border Patrol and fund the agents 
authorized in the intelligence reform bill. Also today, we need to work 
on broad immigration reform so that when we reach 2010, we can finally 
say the Border Patrol is fully funded with enough resources.

                              ----------                              

              Prepared Statement of Congressman Steve King

    Thank you, Chairman Hostettler, for holding this hearing today. I 
agree that it is never enough just to pass legislation-we must make 
certain that our intent is carried out. Although-due to other concerns-
I voted against S. 2845 last year, I strongly support increasing and 
funding our presence both on the border and in the interior.
    I understand our current budget restraints-and I want as much as 
anyone to stop cashing checks on our children's accounts-but our 
national security is not the place to start cutting back. I don't think 
that any of us would dispute that our national security begins at our 
borders. The 9/11 Commission, on whom so many of us relied for 
information during consideration of S. 2845, found that ``it is 
elemental to border security to know who is coming into the country. We 
must be able to monitor and respond to entrances between our ports of 
entry. The challenge for national security in an age of terrorism is to 
prevent the people who may pose overwhelming risks from entering the 
U.S. undetected.'' To expect our Border Patrol to be able to control 
these risks without providing them the means to do so is simply 
irrational.
    I appreciate our witnesses being here today to provide us with more 
information about our needs on the border. I especially want to thank 
Mr. Gadiel and Mr. Eggley for being willing to turn their losses into 
experiences our nation should learn from. Thank you, Mr. Chairman.

                              ----------                              

           Prepared Statement Representative Linda T. Sanchez

        <bullet>  I want to thank Chairman Hostettler, Ranking Member 
        Jackson Lee for conducting this extremely important oversight 
        hearing to evaluate the need for resources for border 
        enforcement activities.

        <bullet>  The U.S. has always been a beacon of hope and we must 
        continue to guard the light of liberty for those who are 
        oppressed or displaced, or are coming here to seek new 
        opportunities for their families.

        <bullet>  Clearly, I know as, does the rest of America, 
        something needs to be done about our broken immigration system.

        <bullet>  One thing is certain and nobody will disagree with 
        me, that we must crack down on illegal immigration and we must 
        improve border security.

        <bullet>  I heard a story two weeks ago that highlights my 
        point. Recently, a crane operator at the Port of Los Angeles 
        discovered 32 Chinese stowaways in a container just unloaded 
        from a Panamanian freighter.

        <bullet>  We were lucky that these people were discovered, and 
        that they meant our country no harm. What if they had been 
        terrorists? Are we going to depend on crane operators to 
        protect us from terrorists entering this country? Situations 
        like this are preventable if we commit more resources to this 
        problem.

        <bullet>  The Bush Administration fails to recognize what 
        resources are needed to secure our borders and ports.

        <bullet>  The people at our ports and borders are our first-and 
        best-line of defense.

        <bullet>  That is why the Intelligence Reform bill included 
        authorization for 10,000 new border guards, 40,000 new 
        detention beds to hold people awaiting deportation, and 4,000 
        new immigration inspectors.

        <bullet>  Yet the President's 2006 Budget did not include 
        funding for any of these security improvements - he merely 
        funds 210 new border patrol agents.

        <bullet>  If we are going to get serious about border security, 
        we need more resources, including more people on the border and 
        more agents at our ports.

        <bullet>  I look forward to hearing from the witnesses who will 
        shed some light on how to effectively secure our borders and 
        ports.

        <bullet>  In addition, I'm hoping they can discuss how our 
        enforcement goals are being pursued under the new homeland 
        security bureaucracy and funding constraints.

        <bullet>  I thank both the Ranking Member and Chairman for 
        convening this hearing.

        <bullet>  I yield back.
    Thank you.

                              ----------                              

<GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>

                               __________
                               
                               <GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT>
                               
                                 <all>

</pre></body></html>
